Department of Health and Human Services

           OFFICE OF

   INSPECTOR GENERAL





 PATIENT ADVANCE DIRECTIVES:

FACILITY AND PATIENT RESPONSES





          AUGUST 1993 OEI 06-91- 01131

             EXE             UTIVE SUMMARY

PUROSE
To examine the ealy responses of sta and  patients in hospitas , nursing facilties, and
home heath agencies to the requirements of the Omnibus Budget Reconcilation Act of
1990 advance directive provisions.

BACKGROUN

On November 5 , 1990 the Congress enacted     advance diective provisions as par of OBRA
1990 , which became effective on December 1 , 1991. The law s intent was to provide
adult patients an opportnity to express their desires about medica treatment in a varety
of settings including hospitas, nursing facilties and home heath agencies. An additional
intent was education of the population on advance diectives such as living wils   and
durable power of attorney for heath care.

Concerns have been rased about the impact of the advance diective provisions. Some
concerns involve whether the provisions wil result in grter involvement of individuals
in heath care decisions. Additional concerns addrssed patient understadig of materials
as well as their importce. Finaly, concerns were raed that patients could be
incon-ectly inormed of their rights or make unrsoned decisions due to introducing
inormation at admission , often a tie of turmoil.


Ths report is a companon to the report " Patient Advance Dirtives: Ealy
Implementation Experience. " That report found that whie most Qf the saple facilties
are complying with the genera legislative requirements , there is a lack of clea and
consistent documentation in patients ' chars. Ths lack of documentation increases the
possibilty that patient trtment wishes. may not be followed. In addition , the fIrst reort
found that 21 percent of the patients in hospitas , nursing facilties and home heath
agencies have advance ditives, and that two-thds of the individuals interviewed from
these facilties had some understadig of advance diectives.


FACILITY SPECIFC INORMTION

Whe no fmdigs or recommendations are presented in this report , a more detaed
discussion is underten of the varance in the above fmdings by facilty tye: hospita,
nursing facilty, and home heath agency. Withi each tye of facilty patient
understadig, documentation , and sta and community education efforts ar examed
with reference to such items as facilty charcteristics , patient payment tye , and patient
charcteristics and dignoses. In addition , implementation problems faced by facilties and
their suggestions for meetig reuirements and enhancing patient understadig
provided.
          . . . . . . . . . . .. .. .. ... ... .. .. .. .. .. .. .. .. .. . . . . . . . . . . . . . . . . . . . . ..




                     ABLE OF CONTENTS

                                                                                                               PAGE

EXCUTI    SlJY                                                                                                         . i

INODUCTION
                                                                                                       . . 1



FACILITY REPORTS                                                                                             . . . . 3



       Hospitas                                                                                              . . . . 4



       Nursing Facilties                                                                           . . . . . . . . 9



       Home Heath Agencies. . . 


ENNOTE
                                                                                                        . . 17

                          INTRODUCTION

PURSE
To examine the ealy responses of sta and  patients in hospitas, nursing facilties , and
home heath agencies to the requirements of the Omnibus Budget Reconcilation Act of
1990 advance directive provisions.

BACKGROUN

On November 5 ,  1990 the Congress enacted advance directives provisions as par of
OBRA- 90. These provisions bece effective on December 1 , 1991 . The law s intent
was to provide adult patients an opportnity to express their desires about medical
treatment in a varety of treatment settings . An additional intent was education of the
population on advance diectives such as living wils and durable power of attorney for
heath care . The legislation reuired Medicaid/Medcare heath cae providers to
develop written policies and procedures and patient materials addressing directives under
State law. Materials were to be presented to patients upon admission to care and
documentation was to be placed in the patient's char statig whether or not he/she had an
advance ditive. In addition , facilties were to ensure that advance ditives were not
required to reeive trtment. Finaly, both sta and community education on advance
ditives were to be provided by the facilty.

Concerns exist about the impact of the advance ditive provisions. Based on previous
studies there is concern whether the legislation wil result in greater patient involvement in
heath care decisions . There is also concern that patients may not understad materials
and their importce     . Finy, there is concern that patients may be incon-ectly
inormed of rights , or make unrsoned decisions due to providig inormation
admission , often a tie of turmoij1. In order to addrss these concerns , we conducted a
study of the ealy implementation of the advance diective provisions to exame
complice with the legislative reuirments and these concerns.
Data collection was conducted at 72 radomly selected facilties in 12 counties ,   in six
 States including urban , suburban and rura , as well as lage and smal facilties. The data
 was obtaed from sta interviews , written materis and a review of additional
. documentation and patient chars. Additionaly, interviews were conducted with patients
 or family members who were radomly selected from the chars reviewed.

To provide a context for the inormation presented in this reort ,   a brief summar of the

fmdigs from the   previous report are presented.



Most Of The Sample Facilites Are Complying With The Genera Legislave
Requirements.  Generay, the facilties have successfully implemented the adminstrtive
aspts of the advance ditive reuirments with hospita showing the highest level of
overa compliance and home heath agencies the lowest. The legislative reuirement most
  freuently unmet was the facilty responsibilty to provide community education with 32
  percent of the facilties faig to have plaed or provided such education on the topic.

   The Lack Of Clear And Consistent Documentaton In Patents ' Charts Increases The
  Possiilit Their Treatent Wishes                        May Not Be Followed.              Whe adminstrtive
  requirements have generay been met , only 26 percent of the sample facilties had clea
  documentation of whether the patient did or did not have an advance directive in 100
  percent of the chars reviewed. In addition , many facilties did not use consistent methods
  of documenting in the chars , makg it dicult to locate inormation on directives.
  Using weighted data projected to the genera population reviewed ,                                 19. 5 percent of the
  chars lacked documentation or contaed ambiguous                                   statements regardig     advance
 directives. Finaly, of the individuals with directives only 60 percent had a copy in their
 char.

 Twenty-one Percent Of The Patents In                           Hospitals, Nursng Facilites And Home Healh
 Agencies Have Advance Directives. 
   Examination of the weighted sample data indicates
 the population included in this inspection had a slightly higher rate of advance directive
 use than populations reported in the literature. In addition , nursing facilty and female
 patients were more liely to have a ditive.

 Two-thirds Of The Individuas Intervewed Had Some           Undersandig Of Advance
 Directves.          Understadig of advance diectives among the individuals in the saple                        was
 faily high with 67 percent of the 348 patients or                              famy members interviewed indicatig
 they understood advance ditives. Being inormed of the right to have a directive

 appeaed to have had some impact on patients , with 21 percent of the individuas

 interviewed statig they would consider gettg a ditive afer heag about them and

 four percent of the individuals actualy executig                               a dirtive afer reciving     trtment.


 FACILIT SPECIFC INORMTION
  Ths report provides an indepth dicussion of data collected for a companon
   Patient Advance Dirves: Ealy Implementation Experience. " Discussions are
                                                                                 reort,
  presented by the           tys
                         of facilties included in the inti inspection , hospitas , nursing
  facilties and home heath agencies. The intent of the inormation is to provide a point of
  comparson and examples of methods used by some facilties to meet reuirments of the
. advance directive provisions , which may be used as guidace for others.

 We conducted our review                     Quality StOJrds for
                                       accordig to the                                        Inspections    issued by the
 President' s Council on Integrity and Effciency.
FACILITY REPORTS

HOSPITALS

Sample Characteriics:

                 24 Hospitas

                 591 Chars

                 120 interviews of patient/interested other


Patient Undersndig

Patient Understaning Varied by Hospital Characteristics, Payment Type and
Documentation Style.

Patient understading of advance directives vared by type and size of hospita. A greater
percentage of for-profit hospita patients demonstrated an understading of advance
directives than those receiving care from non-profIt or public hospitas. Patient
 Hospita              Patient
                                   understadig is somewhat higher in larger hospitas.
 Sample           Understading     For example , whie 68- 70 percent of patients in large
 20 For-Profit          75%          hospitas demonstrted understadig about ditives
 95 Non-Profit          62%          only 62 % of patients in hospitas with 100 or fewer
    Public              60%          bes understood. There was litte diference in patient
                                  understading of advance       dives  between facilties
that discussed inormation with the patient , provided written inormation to the patient or
referr the patient to another person if they wished to discuss ditives.

There were some dierences in understadig based          on patient payment source. Medcae
patients were most liely (75 %) to undersd advance ditives , followed closely by
private insurace patients (72 %). The lowest understadig of        dives
                                                                    was found
among Medcad (18%) and HMO (43%) patients.

The form of provider documentation of advance diectives also had some effect on patient
understadig. Greater understadig was found among patients whose facilties
documented the advance diectives on a stadad form (65%) versus a note (55%).
Likewise , patients whose personal signature wason the form had higher understadig.
Of those who signed the form themselves 73 percnt understood the term advance
ditive. Sixty-fIve percent of individuas whose form was signed by an individua from
the facilty and only 52 percent of those who did not sign a form demonstrted an
understadig of ditives.


Patients who understad    advance   diectives are more liely   to either have or consider
obtag an advance ditive.          For example, 34 percent of those who understad      aldy
have a diective and another 48 percent would consider      obtag
                                                               one. Only eight percent
would not consider an advance diective and fIve percent did not know. In contrst
among those lackig understading of ditives only seven percent have a. diective and
only 18 percent would consider one , whie 37 percent would not consider one and 23
percent did not know. Among patients who understad ditives, understadig is higher
for living wils (63%) than for durale power ofattomey for heath        ca
                                                                      (41 %). .
Hospital Documentation by Patient Characteriics

Documentation an Existence of Directives Varied by Patient Age

The presence of an advance directive was better documented in the medcal chars of older
                                       , the more liely they were to have an advance
patients. Similarly, the older the patient

Age                  18-   31-45 46-60 61-       -;75   directive. However , the
 Chart Documented       67.   81.0% 87.      87.5 %   86.   younger age groups were more
 Have Directive               11.2% 20.      20.            liely to have a copy of the
                                                      34.
 Directive in Char      81.8% 61.5% 76.      76.      55.   directive in their char.



Existence and Documentation of Advance Directives Varied by Patient Payment Type.

Medicare patients had the highest percent of well documented chars , with the exception
of a very smal number of self-pay S patients. Medicare patients also had more advance
directives than any other payment
group. In contrst , Medicaid                       Medi-   Medi-            Private
                                                                    HMO
patients had the poorest                           cad      cae            Inurace Other
documentation and fewer advance Documented         74%     87.       84%    82.4% 80.
diectives compared with other       Have
                                                          30.       23.     21.3 %  19.
pay grups. However , HMO            Directive
and Medcad patients had the         Directive
                                                   75%    53.       87.     51.7%    53%
highest percent of diectives

                                       Prent
present in the char.


Some Patients 'fth     Life Threatening Diagnoses Lacked Documentation.


Missing documentation and documentation statig " unkown "      were noted in 13 percent of
patient chars with dignoses that could be considered lie threatenig. These diagnoses
included cacer , pneumoni , sepsis and thrombosis. In addition , 41 patients lackig
documentation had a diagnosis of pregncy. These patients reresented 39 percent of al
pregnancies reviewed.


Hospital Education Effort

The Great Majority of Hospitals ha Provided Staff an Communty Educaton

Al but one hospita had provided education to the sta   on the topic of advance diectives.
The hospita having    the largest percentages of chas with documentation provided sta


                              trg.
education at regular sta meetigs, as oppsed to new employee orientation or regular
sta inservice trg. However, the most prevalent meas of educatig the staf was
through regular inservice
 Eighty-three percent of the hospitas had provided , or planed , some form of community
 education. The most   common method was having a member of the hospita staf          provide
   ta or parcipate in a discussion on the topic in settings such as senior   citiens centers
 schools, churches and a varety of other locations.   Fort percent of the facilties
 providing education had either maied or distrbuted materials to the public on advance
 diectives. Some of the hospitas provided materials at community heath fais or blood
 drives. Finaly, 45 percent of   facilties providing education had done so through press
 aricles , either in local newspapers or hospita publications.


 Hospitals Reponed Similar Approaches for Informing Patients

 Ninety- fIve percent of the hospitas provided written materials on the topic of advance
 directives to al adult patients. Generay, materials were provided by admissions
 personnel. In addition , 58 percent discussed the inormation with patients and 54 percent
 referred patients to another person if they expressed interest in the topic. Seventy- nie
 percent of the facilties stated they accommodated special nees of patients , with the
largest number saying they made inormation avaiable in other laguages , if neeed.
Twenty- fIve percent of the hospitas provided inormation through closed circuit
television , or video tape. Finaly, eight percent of the hospitas stated they had
inormation avaiable in large tye.


Hospital Problems and Suggesions

Many Hospitals Reponed Implementation Problems an Chllenges

A varety of individuals responsible for implementig the advance    diective provisions
were interviewed in each hospita , including selected specia sta and legal counsel in
some facilties. Seventy- fIve  percent of hospitas stated they had experienced either some
kid of diculty in implementig the Act or they had concerns about the impact of some
of its requirments. The most common problem mentioned was the tie involved.
Hospitas stated it was difcult to address advance diecve inormation durig admission
as it adds to the length of the process. Further , if the inormation was not provided or
obtaed durig admission , additional tie was required for follow-up, frequently
requirg dit ca        personnel involvement in the process.   Ths could create diculties
. due to constrts on diect  ca sta tie.     In addition , addig advance diectives to the
 admission process reuired additional tie to explai the inormation. One hospita stated
 they admitted approxiately 100 patients a day. Thus, the added tie requir to provide
the inormation    bee a serious issue in terms of additional resource reuirements.
Finaly, one hospita   stated that implementig the requirments of the Act had reuired a
gret dea of tie    to develop materials , and change procedures and admission forms.

The second most fruently cited diculty was patient confsion and apprehension
regardig the inormation. Some hospitas stated the laguage was dicult to understad
or the terms used for ditives were not consistent. Others stated patients often thought
 the hospita was tring to tell them they were going to die , or that having a directive was
 an admission the individual was going to die. One hospita stated
                                                                     some patients were
 concerned that the facilty was trying to obta their money if they should die , since the
 patient was confusing a directive with a legal wil.

 Four facilties mentioned that obtaning a copy of the directive from the individuals who
 aleady had one was a    problem. Often the patients did not know where their directive
 was located or they were not aware that they should brig a copy to the hospita. Four
 facilties also mentioned that it was difcult to document whether a patient had a directive
 and provide the required inormation if the patient was admitted through an alternative
 process , such as from a clic , the emergency room or afer hours. Two facilties further
 stated it was difcult to follow-up and reach these individuals at a later time durig their
 hospita stay.

 The expense involved in implementing the Act was cited as a problem by three facilties.
 Added expenses were incurred due to the nee for more sta, the development of
 additional materials , the changing of forms and the nee to provide community education.
 Thee facilties also mentioned problems with the education requirements. Hospitas
 stated educatig their large stas and the community was dicult , due to the resources
 and tie required , but was importt so patients would enter the hospita with a better
 understadig of ditives.




 Hospitals Offered Suggestions to Improve Implementation of The Advance Directive

 Provisions


Emphasis on pre- amval awareness: Hospita providers were asked if they had any
suggestions regardig methods of improving patient understadig on the topic of
diectives and methods of providig the requir inormation to patients. The respnses
focused on the nee for grter patient awareness and understadig       before they amve at
the hospita for ca.   It was felt this would aleviate patient confsion and apprehension
when discussing the topic and determing if the patient had a diective. It would also
alow the admission process to flow more smoothly and quickly.

  Community education: The most commonly mentioned suggestion for enhancing

 awareness revolved around contiued community education efforts by the hospitas

. coupled with efforts of outside agencies , the meda and the governent. Ten facilties
 suggested governent involvement in patient education. It was suggested that the Heath
 Car Financing Adminstrtion make inormation avaible to Medcare clients when they
intiy    sign up for services. It was suggested that inormation should also be made
 avaiable to Medcaid reipients , perhaps though the Heath Deparent. Another
suggestion was a mass   maig    on advance diectives by the Surgeon Genera , as has been
done on other topics , and that public service anouncements on the topic be provided.
addition , facilties suggested the IR could include inormation on the topic with their
forms, insurace agencies could parcipate in education on the topic and that the
America Association   For   Reti Persons. could ' provide. public education. ' Finaly, walet
cards similar to Medi-alert cards or bracelets to indicate if an individual has an advance
diective were suggested.

Physician education and involvement: Nine facilties mentioned the nee to educate
physicians and to increase their involvement in discussing advance directives with patients.
It was stated that physicians may not have a fIrm understadig of advance directives
thus contiuing education and education of medical students on advance directives should
be provided. In addition , it was felt that patients had difculty comprehending detas
about advance directives in the hospita setting and physicians should intiate discussions
on the topic in the less stressful setting of their offce before the nee for hospitaation
arose.

Uniformity: Finaly, seven hospitas expressed the nee to make the inormation provided
on advance directives and forms more uniorm and more easily understood. It was
suggested that simple brochures written at the sixth grde level , with ilustrations , be
utilized and that the inormation presented from facilty to facilty be consistent.
Furthermore , it was suggested that the terms utied to address advance dirtives be
uniorm , as the terminology often vared by state and someties by facilty. A suggestion
was made that materials be maied to individuals who were to be admitted to the hospita
prior to their admission so they could familare themselves with the topic. Finaly,
facilties stated that knowledgeable individuals must be avaiable at facilties to expla
                                                                                         the
inormation they provide to patients. It was suggested that individuals explaig this
inormation could either be patient advocates , or nursing sta.
                                                       - -                      %) .




 NUSING FACILITIS
 Sample Characteritics
                  24 Nursing Facilties
                  424 Chars
                  113 Interviews of patients/interested others

Patient Undersnding

Patient understading of advance directives vared by tye     and size of nursing facilty as
well as by method of providing inormation.    A greater percentage of for-profIt nursing
facilty patients demonstrted an understadig of advance directives than patients
receiving care from non-profIt or public facilties. Patient understading was also
                     Patient      somewhat higher in smaler facilties. For example , 86
 Sample             Understading      percent of individuals in nursing facilties with 100 or
    For- Profit         79.           fewer beds ,   and 72 percent of individuals in facilties of
    Non-Profit          68.           101 to 150 bes demonstrted       an understadig of
    Public              40.        advance ditives. Only 44 percent of individuals
                                   associated with facilties over 150 beds demonstrted
understadig. Patients in facilties that discussed inormation on advance diectives
demonstrted a grter understadig than those only provided with written materials or
refen-ed to another person for discussion.

We found some dierences in patient understadig based on payment type. HM:O (80%)
and self-pay (78%) patients were most liely to have an understadig of advance
diectives. The group with the lowest understadig of ditives was Medcad (63 %)
followed by Medcar patients (64%).

The form of provider documentation of advance          dives
                                                         also had some effect on patient
understadig. Patients whose facilty documented advance diective inormation on
stadadied form (77%) versus a note (69%), had a grter understadig of advance
ditives. Of the individuals with documentation on a form , 88 percent of those whose
form was signed by a responsible par understood the term advance dirtive. Seventy­
nie percent of individuals who signed their own form and 67 percent of those who did
not sign a form demonstrted an understadig of ditives.

Whe patients who understad advance directives are more liely            to either have or
consider obtag a directive , the diference with those who lacked understadig  was not
great. For example ,43 percent of those who understad aleady have a ditive and
another 16 percent would consider     obtagone. Only seven percent would not consider
a ditive , two percent did not know and six percent did not wish to answer. Among
those lackig understadig of advance diectives , 34 percent had a ditive and
percent would consider one , whie 15 percent would not consider one , 16 percent were
unsure and nie percent did not wish to answer. Among patients who understad advance
dirtives , there was litte dierence in, understadig of         living wil (89          versus durable
power of attorney for heath cae      (86%).
Nursing Facilty Documentation by Patient Characteriics

Documentation and Exstence of Directives Varied by Patient Age

The presence of an advance diective was better documented in the medical chars
Age               60 or -: 61-  76-     :: 90   younger patients. However the older
Chars Documented   82.     65.   68.  69.       patients were more liely to have an
 Have Directive          26.4%   39.    42. 1 % 42.         advance diective as well as have a copy

 Directive in Char       77.     72.    78.     88.
                                                            of the directive in the char.


Documentation , Existence and Presence of Directives Varied by Patient Payment Type.

The presence of documentation , having a directive and having a copy of the directive in
the char vared among payment types. Patients with " other " forms of payment had the
highest percentage of well-

documented chars, with HMO                            Medi- Medi-               Private     Self-
                                                                       HMO                          Other
having the poorest. However                            cad       cae           Insurace     pay
self-pay and HMO patients                Documented 75.         72.    25.      71.7%     78.       96.
were most liely to have                  Have
                                                    25.         37.    43.      33.       53.       36.

                                         Diretive

diective , whie " other
Medcaid and self-pay patients            Directive
                                                      83.       78.    71.4%    69.       81.3%     100%

                                         Present
were most liely to have        a copy
of the   ditive      in. the char.


Some Patents with Life Threatening Diagnoses Laked              Documentaton.

Missing documentation ,  documentation stating unable to comprehend , and documentation
located in fmancia records were noted in 32 percent of the patient chars with diagnoses
that could be considere lie threatenig. 'These patients had diagnoses such as cancer
congestive hea faiure , chronic obstrctive pulmonar disease , cerebra vascular disease
pneumonia , sepsis and thrombosis. Sixteen of the patients lackig documentation in the
char had documentation in fmancial records located in admistrtive offces. Finaly, 12
of the patients without documentation had a diagnosis of alheimer s disease or dementi.


Nursing Facilty Education Effort


The Great Majority of Nursing Facilties Had Provided Staff an Communty Educaton.

Al but one   nursing facilty had provided education to the sta on the topic of advance
directives. The facilties with the largest percentages of chars documented had provided
sta education at regula inservice
sta meetigs. Regula inservice
                                         trg
                                        trg as opposed to new employee orientation or
                                            was also the most prevalent meas of providig
education on the topic.
 Seventy-one percent of the nursing facilties had provided , or planed , community
 education. The most common method of community education was providig
 nursing facilties for the residents and family members. Tal were provided by
                                                                                 ta  at the

 physicians , lawyers , and socia workers. Some   ta   were provided by facilty staf at
 community senior citizen centers and a seminar was provided by one facilty lawyer.
 Forty-seven percent of the facilties providing community education had either maied
 distributed materials to the public on advance diectives and 18 percent had placed arcles
 in the local press or newsletters.




Informtion was Provided and      Discussed with the Great Majority of Patients

Ninety-two percent of the nursing facilties provided written materials to al adults on the
topic of advance directives and 96 percent discussed the topic with the patient or family
members. Generaly, materials were provided by admissions or social service personnel.
If individuals expressed interest in the topic they were referred to another person for
further discussion in 37 percent of the facilties. Seventy-one percent of the facilties
stated they accounted for special nees of the patient with the largest number statig they
made inormation avaiable in other laguages if neeed. Twenty- nie percent of the
facilties stated they had inormation avaiable in large tye and eight percent made
inormation avaiable in an audio visual format.


Nursing Facilty Problems and Suggesions

Man Nursing     Facilties Reported    Implementaton Problems an Challenges.

A varety of individuals   responsible for implementig the advance ditive provisions
were interviewed in each nursing facilty, includig admintrtors , admissions diectors
and socia service personnel. Seventy-nie percent of facilties stated they had
experienced some kid of diculty in implementig the provisions. The difculty cited
by the majority of the facilties (14) was the condition of the patient. Some facilties sad
patients were frequently overwhelmed , trumatied or frghtened upon admssion due to
their iless. Four facilties stated that , for these individua , admissions was a dicult
time to discuss advance directives. Furter , some famy members prefen-ed to discuss
the inormation with the patient themselves. Other facilties stated many patients were too
. debiltated or were not competent to understad inormation provided to them. In such
 cases this creted problems , since familes were often out-of- State or univolved which
made obtag inonnation on advance diectives either impossible or lengty. If
individual did have a directive it was often dicult to obta a copy from the famy
member. Additionaly, some fames did not want to hea the discussion about advance
diectives due to the diculty of acceptig the patient' s condition or feeligs of guilt.

The second diculty mentioned by fIve nursing facilties perted to understading of the
terms used. Some facilties rerted concerns regardig whether the patients actualy
understoo the tenns and the implications of medcal decisions that would result from
 their decisions. Other facilties were concerned about the vagueness of the terms , the
 diferences in state and federa law and the legal implications of the terms.

Nursing Facilities Offered Suggestions to Improve Implementaton of The Advance
Directive Provisions



Pre-arrval awareness:      Nursing facilty providers were asked if they had any suggestions
regarding methods of improving patient understadig and providing required inormation
on advance directives to patients. As in the hospitas , the responses focused on the need
for greater patient awareness and understading      before they arve at the nursing facilty
for care. It was felt that prior know ledge could aleviate some of the diffIculties
experienced by facilties in obtag inormation on patient directives and alow the
admission process to flow more smoothly.

Community education: The most commonly mentioned suggestion for enhancing
awareness revolved around community education efforts and ensurig consideration and
execution of diectives if they are desir , before enterig a nursing facilty. Six facilties
stated community education should be offered through a varety of avenues. Some
suggestions for providing public education were public service anouncements , magazine
arcles , and ta  shows. Further suggestions included education by organtions such as
the America Association of Reti Persons , senior citien centers , high schools and
insurace companes. Four facilties suggested the governent parcipate in educational
efforts by makg inormation avaiable when a person enrolls in any public assistace
progr, applies for Social Security, Medcare , or obtas a drvers license. Additionaly,
maigs from Social Security and avaiabilty of governent brochures were suggested.
Finaly, two facilties suggested   that a system of   documentig advance diectives on
drvers licenses ,   social security and Medca   cas could be developed. It was felt that
such documentation would educate peple to      ca copies if they had a diective.
Uniformity: A second group of suggestions perted to both the materials themselves and
methods of providig inormation at the facilty. . Four facilties cited the nee for
uniormity in terms as well as forms used for diectives. In addition , it was felt that the
forms and inormation should be very simple to enhance understadig and reuce the
feelig of being overwhelmed by the inormation. Two facilties suggested heath cae
facilties in the community could coordiate their efforts in the provision of materi to
encourage uniormity of inormation and      understadig.
Enhanced understading:     A fmal suggestion involved increased patient understadig of
directives in the facilty. Providing follow-up severa days afer admission along with the
avaiabilty of individuals having experience with dirtives     to answer   questions were
mentioned. In addition greater physician involvement. and providig the inormation at the
most appropriate tie were suggested. It was felt these suggestions would promote
understanding of the inormation provided durig the stressful admission process and
encourage more than just paper complice.
  HOME HEALTH AGENCIES

  Sample Characteristics:
                24 Agencies

                538 Chars
                115 interviews of patient/interested other

 Patient Undersanding

 Patient Understanding Varied by Home Health Agency Characteristics, Payment Type and
 Documentation Style.

 Patient understading of advance directives vared by tye      and size of home heath   agency
 (l). A greater percent of private home heath patients demonstrted an understading
 of advance directives than those receiving care from other types of agencies , though the
  HHA                 Patient       dierences were not great. Patient understadig was
  Sample           Understading     highest in smaler agencies (77 %) followed by the larger
     For-Profit        70%          agencies (65 %). Only 45 percent of patients in mid-size
     Non-Profit        65%          agencies , with average case loads between 75 and 150
  15 Public            60%         patients a month , understood. As in hospitas , there
                                    was litte dierence in home heath patient
 understading of advance    ditives based on whether inormation was discussed with the
 patient , provided in written format or if the patient was referred to another person for
 discussion.

The majority of patients (82. 6%) were Medicare recipients , with 68 percent demonstrtig
understadig of advance diecves. Of the remaig payment tyes , only Medcaid and
private insurace had at least ten individuals interviewed. Of these groups , 60 percent of
Medcaid patients and 47 percent of private insurace patients demonstrted an
understadig of diectives.

The form of provider documentation of advance diectives also had some effect on patient
understading. Greter understadig was found among patients whose agencies
documented advance diectives in a note (79%) versus a stadad form
                                                                       (56%). However
the largest number of individuals interviewed had a form in their char. Of those with a
stadad form , 73 percent of those with no signature demonstrted       understadig
. compared to 62 percent of those signed by the patient. The lowest level of understading
 among patients with a form were those with a sta signature (44 %).

Patients who understad advance ditives are more liely to have an advance ditive.
For example ,32 percent of those who undersd        aldy have a ditive , however, only
six percent would consider obtag one. A large number , 25 percent would not consider
an advance directives and fIve percent did not know. In contrast , among those lackig
understading of advance ditives only 10 percent have a ditive and
                                                                        only 16 percent
would consider a ditive , whie 29 percent would not consider a ditive and
                                                                                18 percent
did not know. Among patients who understad advance ditives, understadig
  higher for living wils (86       %) than for durable power of attorney for heath care          (78 %),
  although both are high.


  BRA Documentation by Patient Characteritics

 Documentation and Existence of Directives Varied by Patient Age

 The presence of an advance directive was better documented in the medical chars
                                                                                                   of older
 patients. Similarly, the older the patient ,        the more liely    they were to have an advance
  Age                      18-45    46-   61-        76-      )-90     directive. However , the
  Chars Documented        66.       78.5% 77.        74.    66.        younger age groups were more
  Have Directive           5.5%     19.   21.0% 26.         22.        liely to have a copy of the
  Directive in Chart                12.    17. 1 %                     diective in their char.


 Existence an Documentation of Advance Directives Varied by Patient Payment Type.

 Once agai only Medica , Medcad and
 private insurace payment types had a                                         Medi-     Medi-      Prvate
 suffcient number of patients to compare                                       caid      cae     Inrace
 dierences in documentation. Of these three                 Documented        65.       75.       80. 87%
 payment tyes , private insurace patients                   Have
                                                            Directive                   23.       25.
 had the highest percentage of documented
 chars , patients with a diective and patients              Directive
                                                                              25. 0%*
                                                            Prsent                                 12.
 with a diective present.

                                                           * represents only one cae

 Some Patents With Life Threatening Diagnoses Lacked Documentation.

Missing documentation and documentation statig " unable       to determine " or " unable to

comprehend" were noted in 26 percent of patient chars with dignoses that could be

considere lie      thtenig.     The dignoses of these patients included cacer , chronic hea
faiure , chronic obstrctive pulmonar disease , cerebra vascula accident , and pneumonia.
In addition to these patients , three patients lackig documentation had a
                                                                            diagnosis of
. pregnancy.



HH Education           Effort

Whle Only Half of Th Home Health Agencies Had Provided Community Education , All
Had Provided Staff Educaton.
Al home heath agencies had provided education to the sta                 on   the topic of advance
ditives. The agencies having the lagest percentages of chars with documentation
 provided education alost equaly at regular sta inservice       trag
                                                                  and new employee
 orientations , as opposed to sta meetigs. However , the most prevalent meas
 providing education on the topic was through regular staf inservice   trg.
 Community education had been provided , or planed , by 50 percent of the home heath
 agencies. The most common method of community education was maig or distributig
 inormation to members of the community. Additionaly, 36 percent of the agencies
 providing inservice trag    had a sta member discuss advance directives and 27 percent
 had placed arcles either in local newspapers or agency publications.



 Home Health Agencies Reponed Similar Approaches for       Informing Patients

 All of the home heath agencies provided written materials on the topic of advance
 directives to al adult patients.   Generay, materials were provided by the nurse or
 therapist makg the ftrst evaluative visit. In addition , 96 percent discussed the
 inormation with patients and 54 percent refen-ed patients to another person if they
 expressed interest in the topic. Seventy-fIve percent of the facilties stated they
 accommodated special nees of patients , with the lagest number saying they made
 inormation avaiable in other languages , if neeed. Seventeen percent of the agencies
 provided inormation in large tye and four percent had a video tape avaiable.


 HH Problems      and Suggesions

Man Home Health Agencies Reported Implementation Problems          an Challenges.
 A varety of individual responsible for implementig the advance ditive provisions
 were interviewed in each home heath agency, including diector/admstrtors , qualty
 assurace personnel , and nurses. Seventy-nie percent of facilties stated they   had
 experienced some kid     of diculty in implementig the Act. The diculty cited most
 frequently by agencies (8) was the condition of the patient.    Some agencies stated that
freuently, patients had    poor cogntion at admission or were overwhelmed by the proess
  due to their iless. Six agencies stated that many patients have been " bombarded" with
  inormation on directives before enterig home cae , ar tied of heag the inormation
  and are wonderig why they are being given this inormation. Additionaly, severa
. agencies cited the lack of patient knowledge on the subject , the confsion in the terms
  used for the tyes of ditives and the inabilty to answer the patients ' legal questions as
 being problematic.

The second group of diculties was     more genera in nature. Four facilties cited the
extr tie   and  additional burden placed on the individuals performing the aleady long
intial evaluation procedure. Four agencies also mentioned that if an individual had a
ditive it was dicult to obta a copy , since they were frequently not kept at home.
Furthermore , two facilties mentioned the diculty in honorig a diective if 911 is
caed , as paredcs ignore the        dive  even if it is communicated to them. Finaly,
 two facilties cited the cost involved in implementing the reuirements , parcularly in
 developing forms and educational materials.


Home Health Agencies Offered Suggestions to Improve Implementation of The Advance
Directives Requirements

 Community education: Home Heath providers were asked if they had any suggestions
 regarding methods of improving patient understadig on the topic of directives and
 methods of providing the required information to patients. The responses focused on the
 nee to reach patients more effectively with inormation on the topic before medical care
 is required. Nine agencies stated that more public education should be provided by the
 meda and a varety of groups. National advocacy groups , community groups such as the
Kiwans , churches , funera homes and public schools were cited as possible groups to
provide education. Thee agencies cited the nee for doctors to be more involved in the
education of their patients on advance directives. Additionaly, four agencies stated that
the government should be more involved in the public education efforts , providing
brochures for utiltion by smal home heath groups , and workig with national home
heath groups to communicate inormation on directives. Furthermore , it was felt that
Medcare and Socia Security should engage in providig inormation to recipients. Six
agencies also suggested that materials and terminology should be both simplied and made
more uniorm to promote greater understading by patients and reuce confsion on the
topic.

Sharg inormation:      A second suggestion provided by the home heath agencies perted
to coordinatig efforts to reduce replication of paperworkpertg      to advance diectives.
Five facilties suggested hospitas and home heath agencies could shar patient records
and forward advance ditive materials if one service followed the other. In addition , it
was suggested that patients who were readmitted to ca    severa ties thrughout the yea
could have documents on fIle so that materials and services would not have to be
replicated. Ths would not only make the evaluating nurse/therapists job more
manageable , but would also reduce the number of ties an individual would have to be
presented with the materis. It was felt this would reduce the antagonism some patients
feel about the repetition of advance ditive inormation.
                              , ", ," "    , "




                                          ENDNOTES


1. The Patient Self-Determination Act was enacted as section 4206 and 4751 of the
Omnibus Reconcilation Act of 1990 , P. L. 101-508. It was originaly introduced as
1766 by Senators Danorth and Moynian , and H. R. 5067 by Congressman Sander Levin.
2. Levin , Sander , D. MI , Remarks in the House of Representatives on H. R.              5067;
Patient Self- Determination , Thursday, Jun 28 , 1990 , CR page E- 2190.

3. McCloskey, Elibeth Leibold                    The Spirt of the PSDA" Practicing the PSDA
Hasting Center , Sept- Oct         1991 , pg S 14.

4. Kamer , R.       , et al      Efect of New York States Do Not Resuscitate Legislation On In
Hospita Cardiopulmonar Resuscitation                 Prctice   American Journl   of Medicine , 1990,
vol 88 ,   pgs. 108- 111.

5. Tarowski , K.       , et al Readabilty of Pedtrc Biomedica Reseach Inormed
Consent Forms        Pediatrcs 1990 , vol 85 , pgs. 58- 62.
6. Berman H , Rose L.             Chosing the Right Health Care Pla Mount Vernon N. Y.            1
Consumers Union ,       1990 ,     3.


7. La Puma , John ,     et al        Advance Directives on Admission ,  Clical Implications and
Analysis of the Patient Self-Determination            Act of 1990"   lAM July 1991 , Vol 266
no. , pgs. 402-405.

8. Self-pay patients had the highest percent of hospita chars with documentation present
indicatig whether or not  the person had a ditive. However , the number of self-pay
patients included in the hospita saple was only 12 , reresentig only two percent of the
saple. In addition , none of the self-pay patients had an advance ditive. For these
reasons self-pay results were omitted from the table.
